 DOE/IG-0552




         AUDIT                   COMPLETION OF
                              K BASINS MILESTONES
        REPORT




                                  APRIL 2002


 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
  OFFICE OF AUDIT SERVICES
                    U. S. DEPARTMENT OF ENERGY
                          Washington, DC 20585

                              March 15, 2002



MEMORANDUM FOR THE SECRETARY

FROM:                     Gregory H. Friedman (Signed)
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Completion of K Basins
                           Milestones"


BACKGROUND

The Department of Energy (Department) has been storing 2,100 metric tons of spent nuclear
fuel at the Hanford Site in southeastern Washington. The fuel, used in support of Hanford's
former mission, is currently stored in canisters that are kept in two enclosed water-filled pools
known as the K Basins. The K Basins represent a significant risk to the environment due to
their deteriorating condition. In fact, the K East Basin, which is near the Columbia River, has
leaked contaminated water into the underlying soil and groundwater.

Initiated in the early 1990s, the Department's Spent Nuclear Fuel Project is aimed at decreasing
human and environmental risks by removing the spent fuel from the present storage conditions
and placing it into safe, cost-effective interim dry storage until a national geologic repository is
available. The spent fuel project includes removing the fuel from the canisters and cleaning and
repackaging it into multi-canister overpacks. The overpacks are then transported to other
Hanford facilities to dry the fuel and for interim storage.

In December 1998, the Hanford Federal Facility Agreement and Consent Order – a Tri-Party
Agreement among the Department, the Environmental Protection Agency, and the State of
Washington – was modified to address the current cleanup process of the K Basins. The Tri-
Party Agreement, as modified, contains a number of mandatory milestones associated with
removing spent fuel from the K Basins. The agreement requires the Department to remove 190
overpacks by December 31, 2002; 121 additional overpacks by December 31, 2003; and, all
remaining spent fuel, a total of about 400 overpacks, by July 31, 2004.

The objective of our audit was to determine whether the Department is on schedule to meet
these milestones.

RESULTS OF AUDIT

As of March 20, 2002, the Department had removed 50 overpacks – rather than the
approximately 66 planned – from the K Basins. We found that persistent equipment problems
and process complexities may keep the Department from ramping up to its planned full
production schedule of 16 overpacks per month in early 2002. Unless these issues can be
effectively overcome, performance of the Spent Nuclear Fuel Project, specifically as it relates to
the milestones established in the Tri-Party Agreement, may be in jeopardy. Although the
Department agreed to the milestones, its planning assumptions regarding operational processes
                                              -2-


and equipment availability appear to have been overly optimistic. In fact, the K Basin cleanup
process could take substantially longer than called for by the Tri-Party Agreement, thereby
prolonging health, safety, and environmental risks associated with the K Basins' deteriorating
condition.

We recommended that the Department re-evaluate its current approach to removing spent fuel
from the K Basins including, if necessary as a last resort, developing a more realistic
production schedule.

Our findings were consistent with conclusions reached by the Department's "Top-to-Bottom"
Review Team in its recent report on A Review of the Environmental Management Program.
With regard to the effort at the K Basins, the review team noted that at the current rate,
completing spent fuel removal would take more than three years and that potential failures of
key fuel-handling components pose additional risk to the schedule.

MANAGEMENT REACTION

The Manager, Richland Operations Office generally agreed with the facts presented in our
report but did not agree with all of our conclusions and recommendations. The manager
stated that although the K Basin schedule is aggressive, it is achievable, and he, therefore,
believes that re-evaluating the Department's approach is premature. While we respect the
positive nature of this position, the evidence gathered during the audit confirms that
achievement of current Tri-Party Agreement milestones is at risk. Consequently, we believe
that additional analysis of the schedule and challenges facing the project are warranted.

Management's comments are included in their entirety as Appendix 3.

cc: Chief of Staff
    Under Secretary for Energy, Science and Environment
    Assistant Secretary for Environmental Management
    Manager, Richland Operations Office
COMPLETION OF K BASINS MILESTONES

TABLE OF
CONTENTS



               Overview

               Introduction and Objective .......................................................... 1

               Conclusions and Observations.................................................. 1


               Enforceable Milestones at Risk

               Details of Finding ....................................................................... 3

               Recommendations and Comments ........................................... 7


               Appendices

               Scope and Methodology ............................................................. 9

               Prior Audit Reports ................................................................... 10

               Management Response ........................................................... 11
OVERVIEW


INTRODUCTION AND   The Department of Energy (Department) has been storing 2,100 metric
OBJECTIVE          tons of spent nuclear fuel, some of which was generated as early as the
                   1950s, at the Hanford Site in southeastern Washington. The fuel was
                   used in support of Hanford's missions and is now stored in canisters that
                   are kept in two enclosed water-filled pools known as the K Basins.
                   Fuel stored in the K Basins exists in a degraded state.

                   The Richland Operations Office's Spent Nuclear Fuel Project, initiated
                   in the early 1990s, is aimed at decreasing human and environmental
                   risks by removing the spent fuel from the present storage conditions and
                   placing it into safe, cost-effective interim dry storage until a national
                   geologic repository is available. The spent fuel project includes
                   removing the fuel from the canisters and cleaning and repackaging it
                   into multi-canister overpacks. The overpacks are then transported to
                   the site's Cold Vacuum Drying Facility to dry the spent fuel and then to
                   the Canister Storage Building for interim dry storage.

                   In December 1998, the Hanford Federal Facility Agreement and
                   Consent Order – a Tri-Party Agreement among the Department, the
                   Environmental Protection Agency, and the State of Washington – was
                   modified to address the current cleanup process of the K Basins. The
                   Tri-Party Agreement, as modified, contains a number of enforceable
                   milestones associated with removing spent fuel from the K Basins.
                   Specifically, the Agreement requires the Department to remove:

                   •   190 overpacks by December 31, 2002;
                   •   121 additional overpacks by December 31, 2003; and,
                   •   all spent fuel, a total of about 400 overpacks, by July 31, 2004.

                   The objective of our audit was to determine whether the Department is
                   on schedule to meet the milestones to remove the spent fuel from the K
                   Basins.


CONCLUSIONS AND    Although the Department had planned to move about 66 overpacks
OBSERVATIONS       from the K Basins to dry storage by March 20, 2002,1 only 50
                   overpacks had been moved by that date. More significantly, persistent
                   equipment problems and process complexities had kept the Department
                   from ramping up to its planned full production schedule of 16
                   overpacks per month. Unless these issues can be effectively overcome,

                   1
                    This is the latest date for which complete information was available at the conclusion
                   of our audit.

Page 1                                                              Introduction and Objective/
                                                                 Conclusions and Observations
         the Department will not meet any of the milestones established in the
         Tri-Party Agreement relating to the cleanup of the K Basins. Although
         the Department agreed to the milestones, its plan for cleanup of the K
         Basins was not adequate to ensure that the deadlines would be met. As
         a result, the K Basin cleanup process could take substantially longer
         than called for by the Tri-Party Agreement, thereby prolonging health,
         safety, and environmental risks associated with the K Basins'
         deteriorating condition.

         We recommended that the Department re-evaluate its production
         schedule and, as required, amend it to reflect achievable production
         levels.

         The audit identified weaknesses that management should consider when
         preparing its yearend assurance memorandum on internal controls.




                                                     (Signed)
                                                Office of Inspector General




Page 2                                         Conclusions and Observations
ENFORCEABLE MILESTONES AT RISK

Progress To Date   The Department is in jeopardy of missing milestones in the Tri-Party
                   Agreement associated with the removal of fuel from the K Basins. As
                   of March 20, 2002, 50 overpacks had been moved to dry storage
                   although the Department had planned to move about 66 by that date.
                   According to its July 2001 baseline, the Department planned to
                   gradually increase the number of overpacks completed each month
                   during the first year of operations. During that first year (2001),
                   between three and six overpacks were completed each month.
                   Beginning in early 2002, however, the Department intended to ramp up
                   to a more aggressive "full production" schedule of about 16 overpacks
                   per month. The planned ramp-up is illustrated in the following graph.


                                            Chart 1 - K Basin Overpack Baseline Projection


                                200
                                180
                                160
                                140
                                120
                    Overpacks




                                100
                                80
                                60
                                40
                                20
                                    0
                                                                 1




                                                                                                      2
                                    0

                                            01


                                                         1




                                                         1




                                                                         1

                                                                                 02


                                                                                              2




                                                                                              2




                                                                                                              2
                                                       01




                                                                                            02
                                  -0




                                                      -0




                                                              -0

                                                                       -0




                                                                                           -0




                                                                                                   -0

                                                                                                            -0
                                                      -0




                                                                                           -0
                                          b-




                                                    n-




                                                                               b-




                                                                                         n-
                                ec




                                                              ct

                                                                     ec




                                                                                                   ct

                                                                                                          ec
                                                   pr




                                                                                        pr
                                                   ug




                                                                                        ug
                                        Fe




                                                                             Fe
                                                 Ju




                                                                                      Ju
                                                             O




                                                                                                  O
                                                 A




                                                                                      A
                                D




                                                                     D




                                                                                                          D
                                                 A




                                                                                      A




                   A key process change in support of the full production schedule was the
                   implementation of a 24-hour a day, 7-day a week (24/7) schedule.
                   Although the new 24/7 schedule began in January, the Department had
                   been unable to achieve its full production schedule of 16 overpacks as
                   of March 2002. In fact, only six overpacks were expected to be
                   completed in March.




Page 3                                                                                   Details of Finding
         In order for the Department to meet its full production targets, it must
         be able to process a single overpack in about 45 working hours. Data
         provided to the Office of Inspector General by the Department's
         responsible contractor showed that only about a third of the overpacks
         processed so far had been completed in less than 50 working hours.
         About another third had taken 90 hours or more each – double the time
         that must be regularly achieved if the Department is to keep to its
         schedule. By the contractor's calculation, the current average
         processing time is about 72 hours. Processing times for each of the
         next 16 overpacks2 moved are illustrated in the following graph.


                                   Chart 2 - K Basins Fuel Production Times

                             160
                             150
                             140
                             130
                             120
                             110
             Working Hours




                             100
                              90
                              80
                              70
                              60
                              50
                              40
                              30
                              20
                              10
                               0
                                   35   36   37   38   39   40   41    42   43   44   45   46    47   48   49   50
                                                                      Overpack



         As the graph illustrates, the Department continues to experience wide
         fluctuations in processing times. Department managers attributed the
         fluctuations to a number of causes, including frequent equipment
         breakdowns. There are also significant variations in the degree of
         degradation of individual fuel assemblies. Assemblies that are more
         degraded require the use of specialized equipment, introduce additional
         complexity to the processing cycle, and generally take longer to remove
         than assemblies that are in better condition. On this point, it is
         important to note that the 50 overpacks completed as of March 20,
         2002, have all come from the K West Basin. According to Department
         and contractor officials we spoke to, assemblies in this basin tend to be
         in better condition than those in the K East Basin. Thus, assemblies in
         the K East Basin would, potentially, require more processing time.
         2
          Processing times for the first 34 overpacks also varied widely. However, they are not
         included in the chart because times were calculated using slightly different
         assumptions. Thus, times for the first 34 are not fully comparable to the next 16.

Page 4                                                                                          Details of Finding
                          In response to a draft of this report, the Manager of the Richland
                          Operations Office stated that while the current overpack production
                          rate is lower than desired, it is reasonable to expect improvement in
                          this rate. The Manager's response indicated that equipment failures
                          responsible for the lower than expected delivery rate for February 2002
                          are being repaired and design changes implemented to prevent
                          recurrence of the failures. In addition, the Department recently
                          completed a "single failure analysis" of the entire production process.
                          According to the Manager, this process identifies potential future
                          equipment failures as well as approaches to overcoming them. He
                          expects these actions to improve the K Basins process substantially.

                          We support the Department's actions as described in management's
                          comments, but because they occurred after we completed our audit
                          fieldwork, we did not fully assess them. Our primary concern was,
                          and remains, that to date the contractor has been unable to consistently
                          process overpacks within the timeframe required to meet the
                          enforceable milestones.

Enforceable Milestones    The Comprehensive Environmental Response, Compensation, and
                          Liability Act of 1980 (CERCLA) requires that federal facilities enter
                          into agreements that govern the cleanup process. The Tri-Party
                          Agreement establishes the framework for implementing CERCLA
                          requirements and includes enforceable milestones for the removal of K
                          Basins spent fuel. Enforceable milestones are defined as those
                          milestones that if not complied with by the parties, are subject to civil
                          penalties. Prudent project management principles, contained in DOE
                          Order 413.3, ensure that projects are completed on schedule and are
                          fully capable of meeting mission performance. The principles dictate
                          that performance criteria and operational readiness should be known
                          and verified prior to operations.

Planning Considerations   Achievement of the Tri-Party Agreement's milestones was jeopardized
                          because the Department's plan for cleanup of the K Basins was not
                          adequate to ensure that the deadlines would be met. Specifically, the
                          Department agreed to the milestones before completing construction of
                          required facilities, without a full understanding of new technologies
                          that would be employed, and without a realistic processing schedule.
                          In essence, the Department's planning assumptions were overly
                          optimistic.

                          At the time the Tri-Party Agreement was modified to incorporate
                          K Basin milestones, construction work on the Fuel Retrieval System
                          and the Cold Vacuum Drying Facility had not been completed. The
                          Fuel Retrieval System, which is designed to retrieve, clean and load
                          the spent fuel into the overpacks, was not completed until
Page 5                                                                       Details of Findings
                  September 1999, or 9 months after the Tri-Party Agreement was
                  modified. Construction of the Cold Vacuum Drying Facility was not
                  substantially complete until October 1999 – 10 months after the Tri-
                  Party Agreement was modified. Thus, the Department was unable to
                  establish production capabilities for these facilities until well after
                  deadlines had been established.

                  Not only were these facilities not fully constructed, they were also
                  based on technologies that had not been fully proven. Predicted times
                  for fuel retrieval and drying were based solely on estimates of processes
                  and technologies that had never been performed. Once the required
                  facilities were constructed and operational, the Department learned that
                  actual processing times were longer than anticipated.

Potential Risks   In light of the uncertainties associated with the new facilities and
                  technologies employed at the K Basins, the Department had not
                  demonstrated a realistic schedule for removing the required number of
                  overpacks in accordance with the Tri-Party Agreement. Although the
                  24/7 approach was implemented to increase output to the full
                  production level, this approach, by itself, did not appear sufficient to
                  ensure that enforceable milestones would be met. The 24/7 approach
                  will only result in the processing of 16 overpacks per month if each one
                  can be processed in about 45 hours. As noted, the Department has not
                  yet proved that this can be achieved and is averaging about 70 hours per
                  overpack. The Department's planned schedule, therefore, appears to be
                  inconsistent with available technology, processing capabilities, or both.
                  The schedule also does not appear to allow sufficient time for
                  equipment breakdowns. In this regard, we noted that several such
                  breakdowns occurred in the first year of operation, each of which led to
                  significant down time.

                  As a result, the K Basin cleanup process could take substantially longer
                  than called for by the Tri-Party Agreement, thereby prolonging health,
                  safety, and environmental risks associated with the K Basins'
                  deteriorating condition. These risks are well known and include the
                  fact that the K East Basin, which is located near the Columbia River,
                  has leaked contaminated water into the underlying soil and
                  groundwater.

                  Additionally, the Department is subject to fines of $5,000 for the first
                  week and $10,000 thereafter for missing the enforceable milestones
                  dates. At its current production rate, the Department will miss the first
                  enforceable milestone by 169 weeks and could be liable for a fine of up
                  to $1.69 million. Likewise, at the current average removal rate,
                  removing all 400 overpacks will take an additional seven years. This

Page 6                                                                  Details of Finding
                      could result in total fines of about $3.6 million. Further, the
                      Department could face public criticism and increased operating
                      expenses for missing milestones.


RECOMMENDATIONS       We recommend that the Manager, Richland Operations Office:

                         1. Re-evaluate the feasibility of increasing the average number of
                            overpacks removed each month;

                         2. Develop a realistic production schedule based on current
                            production levels and any possible process improvements; and,

                         3. If necessary, attempt to renegotiate enforceable milestone dates
                            with the Environmental Protection Agency and the State of
                            Washington for removal of spent nuclear fuel from the K
                            Basins.

MANAGEMENT REACTION   In his comments on our draft report, the Manager, Richland Operations
                      Office agreed, in general, with the facts presented, but did not agree
                      with all of our conclusions and recommendations. The Manager was
                      particularly concerned that the draft did not adequately reflect the
                      Department's baseline schedule for overpack processing, which allowed
                      for a gradual ramp-up during the first year of operations. We have
                      revised the text to more fully recognize that ramp-up phase.

                      Management partially concurred with the first recommendation, but
                      indicated that with only limited experience in the project's increased
                      production phase, it was premature to re-evaluate the feasibility of
                      increasing the overpack removal rate.

                      Management did not concur with recommendation 2 because it believes
                      that the current schedule, while aggressive, is achievable. With regard
                      to recommendation 3, the Manager stated that if at some point the
                      Department concludes that the end-date Tri-Party Agreement milestone
                      is no longer feasible, it would initiate discussions with the
                      Environmental Protection Agency and the State of Washington at that
                      time.

                      The Manager's comments are included in their entirety as Appendix 3.




Page 7                                                  Recommendations and Comments
AUDITOR COMMENTS   We appreciate management's commitment to achieving the Spent
                   Nuclear Fuel Project's objectives in accordance with milestones
                   identified in the Tri-Party Agreement. Based on our audit, however, we
                   have concluded that meeting those milestones will be problematic
                   unless the Department can overcome equipment failures and process
                   impediments in the very near future. In this context, a re-evaluation of
                   the current processing schedule is, in our judgment, a prudent
                   management action at this time.




Page 8                                             Recommendations and Comments
Appendix 1

SCOPE         We performed the audit from April 17, 2001, through March 20, 2002,
              at the Department's Richland Operations Office and Fluor Hanford, Inc
              (Fluor). The scope included the Spent Nuclear Fuel Project milestones
              in the December 1998 revision of the Tri-Party Agreement as well as
              past and present production schedules for processing spent nuclear fuel
              at Hanford.

METHODOLOGY   To accomplish the audit objective, we:

                 • Reviewed prior audit reports to identify concerns related to K
                   Basin spent fuel;
                 • Reviewed applicable federal laws, regulations, Department
                   Orders, and internal policies and procedures;
                 • Reviewed Fluor's February 2001 Processing Comprehensive
                   Plan Summary;
                 • Reviewed the Fiscal Year (FY) 1997 to FY 2004 Project
                   Baseline budget;
                 • Toured the K West Basin and Cold Vacuum Drying Facility;
                   and,
                 • Analyzed the Department's spent fuel removal process.

              We conducted the audit according to generally accepted Government
              auditing standards for performance audits, and included tests of internal
              controls and compliance with laws and regulations to the extent
              necessary to satisfy the audit objective. Internal controls reviewed
              included Department and contractor policies and procedures and
              Federal regulations related to management and operation of the Spent
              Nuclear Fuel Project. We assessed the significant internal controls and
              performance measures established under the Government Performance
              and Results Act of 1993 related to the Spent Nuclear Fuel Project's
              management and operation. The Department had established
              reasonable performance measures and incentive fees for each
              enforceable milestone to remove spent fuel. Because we limited our
              review, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. We did not
              conduct a reliability assessment of computer-processed data because
              only a very limited amount of such data was used during the audit.

              An exit conference was held with representatives from the Office of
              Environmental Management and the Richland Operations Office on
              April 1, 2002.




Page 9                                                      Scope and Methodology
Appendix 2

                           RELATED OFFICE OF INSPECTOR GENERAL
                          AND GENERAL ACCOUNTING OFFICE REPORTS

          •   Remediation and Closure of the Miamisburg Environmental Management Project (DOE/
              IG-0501, May 2001). The remediation and closure of the Miamisburg Environmental
              Management Project was not on schedule. The commitment to close the site will not be
              met because a completion date was set without knowing whether it was achievable and a
              valid baseline was not developed to effectively manage the project.

          •   Americium/Curium Vitrification Project at the Savannah River Site (DOE/IG-0489,
              November 2000). The audit found that the Department will not meet its current
              commitment to stabilize Americium/Curium because it made commitments before
              knowing if they were achievable and did not establish a continuous level of funding
              necessary to complete the project on time.

          •   The Management of Tank Waste Remediation at the Hanford Site (DOE/IG-0456, January
              2000). Key project management components have yet to be developed and implemented
              to control the cost, schedule, and technical direction of the project. The milestone
              schedule was established before the technical scope was determined for the project.

          •   Department of Energy's Hanford Spent Nuclear Fuel Storage Project – Cost, Schedule,
              and Management Issues (GAO/RCED-99-267, September 1999). GAO found that the
              project schedule and budget has continued to increase, problems have made meeting the
              project goals uncertain, and weaknesses exist in the management and oversight of the
              project.

          •   Management Problems at the Department of Energy Hanford Spent Nuclear Fuel Storage
              Project (GAO/T-RCED-98-119, May 1998). GAO found that the deteriorating spent fuel
              and storage basins may become unsafe, the project was behind schedule and over budget,
              unrealistic schedules and inadequate management contributed to project difficulties, and
              recent changes to the project may not stop the cost and schedule growth.

          •   Department of Energy's Project to Clean Up Pit 9 at Idaho Falls is Experiencing
              Problems (GAO/RCED-97-180, July 1997). The Department agreed to an enforceable
              deadline (milestone) for retrieving and processing the waste from the Idaho Falls Site Pit 9
              by February 1999. However, the contractor estimated that it would not be able to
              complete the project until April 2001. The deadline was agreed upon even though the
              proposed system had never been tested in a full-scale operation.

          •   National Priorities Needed for Meeting Environmental Agreements (GAO/RCED-95-1,
              March 1995). GAO found that the Department entered into unrealistic agreements that
              were made without knowing whether the cleanup tasks were technically feasible.



Page 10                                                                                 Prior Audit Reports
Appendix 3




Page 11      Management Response
Page 12   Management Response
Page 13
          Management Response
Page 14   Management Response
Page 15   Management Response
Page 16   Management Response
Page 17   Management Response
                                                                              IG Report No.: DOE/IG-0552

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
